       JOURNAL ENTRIES TO SUPPORT DEPARTMENTAL
            REPORTING FOR THE MARINE CORPS


Report No. D-2001-041               January 31, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
STARS-FDR             Standard Accounting and Reporting System – Financial
                         Departmental Reporting
                       Office of the Inspector General, DoD
Report No. D-2001-041                                              January 31, 2001
 (Project No. D2000FC-0283.000)


            Journal Entries to Support Departmental Reporting
                           for the Marine Corps

                                  Executive Summary

Introduction. This audit was performed in response to the Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994. This is
the first report in a series of audit reports on our audit of the FY 2000 Department of
the Navy (Navy) General Fund financial statements. Defense Finance and Accounting
Service (DFAS) Cleveland and Kansas City provide finance and accounting support to
the Navy and Marine Corps, respectively. The FY 1999 Navy General Fund reported
assets of $125.9 billion, liabilities of $54.4 billion, net cost of operations of
$114.1 billion, and total outlays of $78.6 billion. The Navy General Fund financial
statements include financial data for both the Navy and the Marine Corps. The
FY 2000 Navy General Fund preliminary financial statements were not available during
the audit.

Objectives. The overall audit objective was to determine the reliability and
effectiveness of processes and procedures used to prepare Navy General Fund financial
statements. Specifically, for this part of the audit, we focused on whether the journal
voucher entries that DFAS Cleveland made to create the monthly and year-end
departmental reports for the Marine Corps appropriations were necessary. Our review
of the management control program for departmental and financial statement reporting
for DFAS Cleveland and Kansas City will be reported in a future audit report.

Results. DFAS Cleveland manually entered unnecessary Marine Corps appropriation
financial data into the Standard Accounting and Reporting System – Financial
Departmental Reporting, using journal vouchers, to prepare the monthly “Report on
Budget Execution” (SF 133). Because the data to create the SF 133 were later
uploaded in the accounting system electronically, DFAS personnel prepared additional
journal voucher entries to reverse much of the information originally entered. As a
result, DFAS Cleveland prepared 1,297 unnecessary journal vouchers with an absolute
value of $39.6 billion in FY 2000 through August 10, 2000. The manual process
increased the potential for input errors and diverted personnel from other work. For
details of the audit results, see the Finding section of the report. Appendix A discusses
the audit scope and methodology and prior audits related to the audit objective.

Summary of Recommendation. We recommend that the Director, Defense Finance
and Accounting Service Kansas City and the Director, Defense Finance and Accounting
Service Cleveland establish procedures to use electronically uploaded financial data to
support the “Appropriation Status Report” (DD Form 1002), “Report of
Reimbursements” (DD Form 725) and “Report on Budget Execution” (SF 133) each
month to avoid the need to prepare journal voucher entries and later reverse entries
manually.

Management Comments. The Director for Accounting, DFAS, concurred in principle
with the finding and recommendation, stating that because the due date of the SF 133
report is before the completion date of the DD Form 1002 and DD Form 725 reports,
the journal entries are necessary to prepare the SF 133. Further, DFAS stated that they
would have to extend the due date of the SF 133 past the completion date of the
DD Form 1002 and DD Form 725 reports to effectively implement the
recommendation. See the Finding section for the complete discussion of management
comments and the Management Comments section for the complete text of the
management comments.

Audit Response. The management comments from DFAS were not responsive. We
recognize the due date problem and state that aspect of the process in the report. The
intent of the recommendation is to compensate for the due date problem by using the
electronic financial data available to prepare the SF 133 report without the necessity of
making journal entries that must later be reversed. DFAS did not address our proposal
to use the electronic financial data to prepare the SF 133. We request that the Director,
Defense Finance and Accounting Service, provide comments to the final report by
March 30, 2001.




                                           ii
Table of Contents

Executive Summary                                               i


Introduction
     Background                                                 1
     Objectives                                                 1

Finding
     Journal Voucher Entries for Marine Corps Appropriations    2

Appendixes
     A. Audit Process
         Scope and Methodology                                  7
         Prior Coverage                                         8
     B. Report Distribution                                     9

Management Comments
     Defense Finance and Accounting Service                    11
Background
     Chief Financial Officers Act. This audit was performed in response to Public
     Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
     as amended by Public Law 103-356, the “Federal Financial Management Act of
     1994,” October 13, 1994. This is the first in a series of audit reports on our
     audit of the FY 2000 Department of the Navy (Navy) General Fund financial
     statements.

     Role of the Defense Finance and Accounting Service. Defense Finance and
     Accounting Service (DFAS) Cleveland and Kansas City provide finance and
     accounting support to the Navy and Marine Corps, respectively, and maintain
     departmental accounting records and prepare financial statements using data
     from field organizations. DFAS Cleveland prepares the Department of the
     Navy General Fund financial statements, which include data for the Marine
     Corps that DFAS Kansas City produced and submitted to DFAS Cleveland.
     The FY 1999 Navy General Fund reported assets of $125.9 billion and liabilities
     of $54.4 billion. The Navy also reported net cost of operations of
     $114.1 billion and total outlays of $78.6 billion. The Navy General Fund
     financial statements include financial data for both the Navy and the Marine
     Corps. The FY 2000 Navy General Fund preliminary financial statements were
     not available during the audit.

     FY 1999 Department-Level Accounting Entries. Inspector General, DoD,
     Report No. D-2000-179, “Department-Level Accounting Entries for FY 1999,”
     August 18, 2000, states that DFAS Cleveland processed 9,348 accounting
     entries, valued at $1.5 trillion, to invalid general ledger accounts. In response
     to that report, the Under Secretary of Defense (Comptroller) stated that all
     $1.5 trillion of accounting entries were related to the procedure in which DFAS
     Cleveland entered and reversed the Marine Corps budgetary data to prepare the
     “Report on Budget Execution” (SF 133). Therefore, we directed our initial
     audit work for FY 2000 to determine why DFAS Cleveland needed to make the
     manual accounting entries for the SF 133. Our audit, as discussed in this
     report, showed only 14 percent of the adjustments for FY 2000 were related to
     the Marine Corps SF 133.



Objectives
     The overall audit objective was to determine the reliability and effectiveness of
     processes and procedures used to prepare Navy General Fund financial
     statements. Specifically, for this part of the audit, we focused on whether the
     journal voucher entries that DFAS Cleveland made to create the monthly and
     year-end departmental reports for the Marine Corps appropriations were
     necessary. Our review of the management control program for departmental
     and financial statement reporting for DFAS Cleveland and Kansas City will be
     reported in a future audit report. Appendix A discusses the audit scope and
     methodology related to the audit objective.



                                          1
           Journal Voucher Entries for
           Marine Corps Appropriations
           DFAS Cleveland manually entered unnecessary Marine Corps
           appropriation financial data into the Standard Accounting and Reporting
           System – Financial Departmental Reporting (STARS-FDR), using
           journal vouchers, to prepare the monthly SF 133. The manual journal
           vouchers were prepared because DFAS Cleveland personnel stated that
           they could not load the information electronically in time to meet the
           reporting deadline for the SF 133. As a result, DFAS Cleveland
           prepared 1,297 unnecessary manual journal vouchers with an absolute
           value of $39.6 billion, in FY 2000 through August 10, 2000. The
           manual process also increased the potential for input errors and diverted
           personnel from other work.

Monthly Reporting Process
    DFAS Cleveland prepared three monthly reports for Department of the Navy
    appropriations: The SF 133, the “Appropriation Status Report” (DD Form
    1002), and the “Report of Reimbursements,” (DD Form 725). To prepare
    those reports for the Marine Corps appropriations, DFAS Kansas City
    transmitted three electronic files to DFAS Cleveland on the 13th workday of
    each month, one file for each report. The SF 133 was due on the 16th day of
    the month, and DD 1002 and DD 725 were due on the 21st day of the month.

    The electronic file for the SF 133 was not directly uploadable into STARS-FDR
    and DFAS Cleveland manually input the SF 133 data. However, electronic files
    for the DD 1002 and DD 725 were transmitted in a format that allowed the
    information to be electronically uploaded into specific general ledger accounts in
    STARS-FDR. The majority of the financial data for the SF 133 was also
    included on the DD 1002 and DD 725 reports, but the DD 1002 and DD 725
    reports included more detailed information. DFAS programmed STARS-FDR
    to produce the three required monthly reports from the data entered.



Preparation of SF 133 for Marine Corps Appropriations
    DFAS Cleveland manually created 1,297 journal voucher entries worth
    $39.6 billion for Marine Corps appropriations to create the monthly SF 133
    during the first 10 months of FY 2000. Because the data to create the SF 133
    were later uploaded in STARS-FDR electronically, DFAS personnel prepared
    additional manual journal voucher entries to reverse much of the information
    originally entered.

    Journal Voucher Entries. DFAS Cleveland used journal vouchers to enter
    Marine Corps appropriation financial data into STARS-FDR, which produced
    the monthly SF 133 report. DFAS Cleveland used specific general ledger
    accounts that flowed directly to each respective line of the SF 133. Each of
    these accounts was identifiable by a four-digit suffix, which included the specific

                                         2
line number that the data would flow to on the SF 133. For example, the
general ledger account number “4811.08A0” was used to populate line 8.A.,
Obligations Incurred, of the SF 133 for each Marine Corps appropriation and all
reported budget years.

Table 1 shows an example of one journal voucher entry in STARS-FDR to
create the SF 133. The entry was for budget year 2000. A similar entry was
made each month for each Marine Corps appropriation: Military Personnel
(1105); Operation and Maintenance (1106); Operation and Maintenance,
Reserve (1107), Reserve Personnel (1108); and Procurement (1109) and for
each budget year reported (budget years 2000, 1999/2000, 1999, 1998, 1997,
1996, and 1995).



          Table 1. Journal Voucher Entry for
           Appropriation 1106 – Operation and
                Maintenance, Marine Corps

      General
      Ledger
      Account                   Debit AmountCredit Amount
      4150.1000                 $        -- $ 22,036,000
      4511.1000                    22,036,000        --
      4561.1000                   246,195,244        --
      4571.1000                          --   245,495,244
      4650.1000                          --        700,000
      4811.9000                   368,288,541        --
      4910.1100                          --   368,288,541
      4910.9000                   511,566,077        --
      4921.9000                    31,347,753        --
      4231.03B2                    93,908,749        --
      4231.14B1                          --    93,908,749
      4251.03A2                          --    70,247,079
      4251.14A0                    70,247,079        --
      4811.08A0                          --   240,109,162
      4811.14C0                          --   271,456,915
      4821.08D0                                31,347,753
             Total        $1,343,589,443 $1,343,589,44
                                                        3


Journal Voucher Reversals. After DFAS Cleveland submitted
SF 133s on the 16th workday of the month, it uploaded the electronic files to
support the DD 1002 and DD 725 into STARS-FDR to prepare those reports.
However, some of the information to support the DD 1002 and DD 725 was


                                   3
already in STARS-FDR because DFAS Cleveland personnel manually prepared
journal voucher entries earlier in the month to produce the SF 133. Therefore,
DFAS Cleveland personnel had to reverse that information out of STARS-FDR.
Table 2 shows the reversing journal voucher entry for the journal voucher entry
in Table 1.


           Table 2.   Sample Reversing Journal
                          Voucher
              Entry For the Entry in Table 1
           For Marine Corps Appropriation 1106

      General
      Ledger
      Account                  Debit Amount  Credit Amount
      4910.9000                  $     --     $511,566,077
      4921.9000                        --       31,347,753
      4231.03B2                        --       93,908,749
      4231.14B1                   93,908,749          --
      4251.03A2                   70,247,079          --
      4251.14A0                        --       70,247,079
      4811.08A0                  240,109,162          --
      4811.14C0                  271,456,915          --
      4821.08D0                   31,347,753          --
             Total           $707,069,658 $707,069,658


Note that not all the general ledger accounts in the initial journal voucher from
Table 1 were reversed in the journal voucher entry in Table 2. The general
ledger accounts that were reversed were “holding” accounts that went directly to
a line of the SF 133 and needed to be reversed because the actual data were
entered into STARS-FDR through the upload of the DD 1002 and DD 725. The
$637 million of accounts from Table 1 that were not reversed were valid general
ledger accounts that were not replaced by the upload of the DD 1002 and
DD 725 reports.

Timing of the Reports. DFAS Cleveland prepared the manual journal
vouchers for the Marine Corps appropriations because personnel stated that they
could not complete the electronic feed of the DD 1002 and DD 725 in time to
meet the SF 133 reporting deadline of the 16th workday of the month.
However, the data for the SF 133, DD 1002, and DD 725 were available on the
13th workday of each month.

Magnitude of Journal Vouchers. As of August 10, 2000, DFAS Cleveland
accountants had made 1,297 unnecessary journal voucher entries for FY 2000 in
STARS-FDR, worth $39.6 billion (absolute value) associated with the Marine
Corps appropriation SF 133 data. As illustrated in Table 1, each individual
journal voucher entry was large and time consuming. The number and absolute


                                    4
    dollar value of Marine Corps SF 133 journal voucher entries was 14 percent and
    6 percent, respectively, of the total journal voucher entries made in FY 2000
    through August 10, 2000.


DFAS Efforts to Improve Marine Corps Financial Reporting
    In a Memorandum of Understanding signed on June 14, 2000, DFAS Cleveland
    and Kansas City agreed to transfer the duties of preparing the manual journal
    vouchers in STARS-FDR to DFAS Kansas City, on a test basis, for two Marine
    Corps appropriations. DFAS Kansas City and Cleveland later agreed to transfer
    the rest of the Marine Corps appropriations to DFAS Kansas City, starting with
    the first month of FY 2001. The agreement was intended to move the
    responsibility of preparing the Marine Corps departmental reports to the
    personnel who had the most information, and to allow the making of changes
    and adjustments more easily.

    Although the Memorandum of Understanding was a step in the right direction,
    there were no plans to discontinue preparing manual journal vouchers. DFAS
    Cleveland expected DFAS Kansas City personnel to prepare the manual journal
    vouchers and make the necessary adjustments. However, the need for those
    journal vouchers can be eliminated if the data for the DD 1002 and DD 725
    were uploaded in STARS-FDR and used to produce the SF 133 by the 16th
    workday. Our discussions with accounting personnel at DFAS Cleveland and
    Kansas City indicated that they were eager to eliminate the need to prepare
    manual journal voucher entries and were willing to try using uploaded DD 1002
    and DD 725 information to create the SF 133. No one could say how long that
    process would take however.



Conclusion
    DFAS Cleveland prepared a significant number of journal voucher entries in
    STARS-FDR during the course of the year. The entries were to correct,
    complete, or enter original data into STARS-FDR. Certain journal voucher
    entries will be necessary under any circumstances, especially with the current
    system configuration in the Department of the Navy. However, reducing the
    number of unnecessary manual journal vouchers will save time and decrease the
    potential for input errors. An effort should be made to increase the use of
    electronic feeds of data instead of the use of manual journal voucher entries to
    enter original financial data into STARS-FDR. The time saved by not making
    the manual journal voucher entries can be used to upload the DD 1002 and DD
    725 reports, balance them, and create the SF 133.




                                        5
Recommendation, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Finance and Accounting Service
    Kansas City and the Director, Defense Finance and Accounting Service
    Cleveland establish procedures to use electronically uploaded financial data
    to support the “Appropriation Status Report” (DD Form 1002), “Report of
    Reimbursements” (DD Form 725) and “Report on Budget Execution”
    (SF 133) each month to avoid the need to manually prepare journal voucher
    entries and later reversing entries.

    Management Comments. The Director for Accounting, DFAS, concurred in
    principle, stating that because the due date of the SF 133 report is before the
    completion date of the DD 1002 and DD 725 reports, the journal entries are
    necessary to prepare the SF 133. Further, DFAS stated that they would have to
    extend the due date of the SF 133 past the completion date of the DD 1002 and
    DD 725 reports to effectively implement the recommendation.

    Audit Response. The comments from DFAS are not responsive. We recognize
    the due date problem and stated that aspect of the process in the draft of this
    report. The intent of the recommendation is to compensate for the due date
    problem by using the electronic financial data available to prepare the SF 133
    without the necessity of making journal entries that must later be reversed.
    DFAS did not address our proposal to use the electronic data to prepare the SF
    133. At a minimum, DFAS should consider running a test to examine the
    potential of our recommendation and come up with ways to expedite the DD
    1002 and DD 725 reporting processes. We request that DFAS provide
    additional comments in response to the final report.




                                       6
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The overall audit objective was to determine the reliability
    and effectiveness of processes and procedures used to prepare Navy General
    Fund financial statements. Specifically, for this part of the audit, we focused on
    whether the journal voucher entries that DFAS Cleveland made to create the
    monthly and year-end departmental reports for the Marine Corps appropriations
    were necessary. We queried DFAS Cleveland accounting system, STARS-
    FDR, for all journal voucher entries made from October 1, 1999, through
    August 10, 2000, by using the Query Management Facility tables. We queried
    35 appropriations, which resulted in 9,274 journal voucher entries, totaling
    $636 billion. All temporary journal voucher entries were excluded from each
    run of the appropriations. Once completed, each appropriation was saved by
    appropriation number then retrieved using a file transfer protocol. We then
    opened each individual file in Excel for further analysis.

    We observed the process that DFAS Cleveland and Kansas performed to prepare
    the departmental reports for the Marine Corps appropriations. We started with
    the process DFAS Kansas City performed to prepare the reports from the source
    data and followed the process to the actual journal voucher entries in
    STARS-FDR.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following objective and goal, subordinate performance goal, and performance
    measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2)
           on financial statements. (01−

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the STARS-FDR system to identify the journal voucher entries related to


                                        7
    preparing and reversing manual journal voucher entries for the Marine Corps
    departmental reports. Although we did not perform a reliability assessment of
    the computer-processed data, we did not find errors that would preclude use of
    the computer-processed data to meet the audit objectives or that would change
    the conclusions in this report.

    Audit Type, Period, and Standards. We performed this financial-related audit
    from July through October 2000, in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted organizations in the DoD.
    Further details are available on request.



Prior Coverage
    The General Accounting Office; the Inspector General, DoD; and the Naval
    Audit Service have conducted multiple reviews related to financial statement
    issues. General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports
    can be accessed on the Internet at http://www.hq.navy.mil/navalaudit.




                                       8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland
   Director, Defense Finance and Accounting Service Kansas City


Non-Defense Federal Organization
Office of Management and Budget




                                           9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       10
Defense Finance and Accounting Service Comments




                         11
12
Audit Team Members


The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

F. Jay Lane
Salvatore D Guli
Marvin L. Peek
Linda A. Pierce
David J Ramseyer
Kristie J. Ebert
